Office of Audits
Office of Inspector General
U.S. General Services Administration




Audit of GSA’s
Acquisition of Vehicles
Report Number A110105/Q/A/P12001
December 14, 2011
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                    REPORT ABSTRACT
                            Audit of GSA’s Acquisition of Vehicles
                            Report Number A110105/Q/A/P12001
OBJECTIVES
 The objective of this      December 14, 2011
 audit was to evaluate      WHAT WE FOUND
 procurement practices      After reviewing procurement practices for vehicle acquisitions within the
 within the Office of       Office of Travel, Motor Vehicles, and Card Services, we found the following:
 Travel, Motor Vehicle,
                            Finding 1 – The required approval was not obtained for acquisition plans,
 and Card Services to
                            which puts the acquisitions at risk.
 determine if vehicle
 acquisitions are           Finding 2 – The lack of coordination with the Office of General Counsel on
 awarded and                high-dollar acquisition plans affects the integrity of the planning process and
 administered in            puts the award at risk.
 accordance with            Finding 3 – Pre-Negotiation Clearance Panels were not conducted when
 applicable laws,           required, which compromises the quality of negotiations.
 regulations, policies,     Finding 4 – Contracting officers did not maintain a complete record of all
 and procedures.            acquisition steps and actions executed in contract files leading to inadequate
                            contract file documentation.
                            WHAT WE RECOMMEND
                            We recommend that the Commissioner of the Federal Acquisition Service:
                            Recommendation 1 – Increase supervisory oversight during acquisition
                            planning to ensure all acquisition plans are approved by the appropriate
                            official prior to issuing the solicitation.
                            Recommendation 2 – Implement a procedure to ensure all applicable
                            acquisition plans are coordinated with the Office of General Counsel prior to
                            approval of the acquisition plan.
                            Recommendation 3 – Strengthen management controls over the pre-
                            negotiation process to ensure Pre-Negotiation Clearance Panels are properly
                            conducted and documented when required.
                            Recommendation 4 – Improve and standardize the contract file
                            documentation process to ensure (1) contract file documents are complete
                            and accurate, (2) all completed actions and steps have supporting
                            documentation, (3) each file is organized according to a completed index or
Acquisition Programs        checklist, and (4) the transfer of files between contracting officers is clearly
Audit Office (JA-A)         documented and an inventory of contract file documents is recorded.
241 18th St. S Suite 607
Arlington, Virginia 22202   MANAGEMENT COMMENTS
(703) 603-0189              The Commissioner of the Federal Acquisition Service agrees with the report
                            findings.

                                                   i
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration

 DATE:               December 14, 2011
 TO:                 Steven J. Kempf
                     Commissioner, Federal Acquisition Service (Q)

 FROM:               Lindsay S. Mough
                     Audit Manager, Acquisition Programs Audit Office
 SUBJECT:            Audit of GSA’s Acquisition of Vehicles
                     Report Number A110105/Q/A/P12001

This report presents the results of our audit of GSA’s Acquisition of Vehicles. Our
findings and recommendations are summarized in the Report Abstract. Instructions
regarding the audit resolution process can be found in the email that transmitted this
report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

   Lindsay Mough           Audit Manager        lindsay.mough@gsaig.gov   703-603-0269

   Victoria Nguyen         Auditor-In-Charge    victoria.nguyen@gsaig.gov 703-603-0267

   Lisa Rowen              Auditor              lisa.rowen@gsaig.gov      703-603-0228

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




                                               ii
Table of Contents
Introduction .............................................................................................................. 1
Results
Finding 1 – Required approval not obtained for acquisition plans puts acquisitions
            at risk ....................................................................................................... 2
                 Recommendation 1 ................................................................................. 2
Finding 2 – Lack of coordination with the Office of General Counsel on high-dollar
            acquisition plans affects the integrity of the planning process and puts
            the award at risk ...................................................................................... 3
                 Recommendation 2 ................................................................................. 3
Finding 3 – Pre-Negotiation Clearance Panels not conducted when required
            compromises the quality of negotiations.................................................. 4
                 Recommendation 3 ................................................................................. 4
Finding 4 – Contracting officers did not maintain a complete record of all acquisition
            steps and actions executed in contract files leading to inadequate
            contract file documentation ...................................................................... 4
                 Recommendation 4 ................................................................................. 5
Management Comments ............................................................................................ 5
Conclusion ................................................................................................................ 6
Appendixes
Appendix A – Purpose, Scope, Methodology, and Internal Controls .............. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




                                                               iii
Introduction
The General Services Administration (GSA) is the mandatory source under the Federal
Property Management Regulations 1 for all non-tactical vehicles for Federal executive
agencies in the United States. GSA’s Office of Travel, Motor Vehicle, and Card Services
(TMVCS) administers the motor vehicle programs. The Office of Acquisition Operations
(AO) awards and administers the contracts for TMVCS’ products and services. AO’s
Center for Vehicle Acquisition develops and executes all of the motor vehicle contracts
for GSA.

The Center for Vehicle Acquisition uses several different procurement methods when
acquiring vehicles for GSA customers. These procurement methods include, but are not
limited to, multiple negotiated indefinite-delivery indefinite-quantity (IDIQ) contracts,
definite-quantity contracts, and simplified acquisitions.

The government uses IDIQ contracts when it cannot predetermine, above a specified
minimum, the precise number of vehicles required during the contract period. IDIQs
satisfy the customer’s recurring need of vehicles. A multiple negotiated IDIQ is awarded
to more than one contractor under a master contract. The Center for Vehicle Acquisition
maintains a master contract file for the solicitation, as well as each contractor’s
individual contract file for the award and administration documents specific to the
contractor.

Definite-quantity contracts provide a specified definite quantity of vehicles for a fixed
period with deliveries or performance scheduled at designated locations upon order.

Simplified acquisition procedures apply when the estimated value of the vehicle(s)
requested does not exceed the simplified acquisition threshold. 2 Simplified acquisition
procedures apply to Express Desk orders. The Express Desk processes vehicle orders
for government agencies with urgent and compelling requirements.

The objective of this audit was to evaluate procurement practices within the Office of
Travel, Motor Vehicle, and Card Services to determine if vehicle acquisitions are
awarded and administered in accordance with applicable laws, regulations, policies, and
procedures.

To accomplish the objective, we sampled and reviewed IDIQ, definite-quantity, and
Express Desk contracts. See Appendix A – Purpose, Scope, Methodology, and Internal
Controls for additional details.




1
  Federal Property Management Regulations 101-26.501
2
  The Federal Acquisition Regulation’s simplified acquisition threshold is $150,000. Prior to the start of
fiscal year 2011, the simplified acquisition threshold was $100,000.


                                                  1
Results
The Office of Acquisition Operations’ (AO) Center for Vehicle Acquisition did not
consistently award and administer vehicle acquisitions in accordance with applicable
laws, regulations, policies, and procedures. Specifically, we identified issues with
acquisition planning, Pre-Negotiation Clearance Panels (PNCPs), and contract file
documentation.

Finding 1 – Required approval not obtained for acquisition plans puts
acquisitions at risk.

If contracting personnel do not obtain proper approval of acquisition plans, the
acquisition process is more susceptible to mismanagement and may result in wasted
resources and customer dissatisfaction. The General Services Administration
Acquisition Manual (GSAM) provides regulations in Subpart 507.1 for greater oversight
and risk management during acquisition planning. Specifically, GSAM 507.1 requires a
certain level of approval for acquisition plans based on estimated dollar value
thresholds. 3

We reviewed ten acquisition plans valued above the simplified acquisition threshold,
which required approval above the contracting officer level. We found four plans did not
have the appropriate level of approval, two of which were valued above $20 million and
$50 million respectively. Further, we could not confirm the date of approval for two other
acquisition plans, which required approval from the Head of Contracting Activity.
Therefore, we could not determine if the acquisition plan was approved prior to issuance
of the solicitation. The contract files did not contain sufficient documentation to
determine a reason proper approval did not occur for these contracts.

Obtaining and documenting proper approval on acquisition plans provides integrity to
the entire acquisition planning process. Experienced contracting personnel are more
likely to identify and apply specific considerations to complex acquisitions.

Recommendation 1

We recommend that the Commissioner of the Federal Acquisition Service:

Increase supervisory oversight during acquisition planning to ensure all acquisition
plans are approved by the appropriate official prior to issuing the solicitation.




3
 Below the simplified acquisition threshold (SAT) requires approval by a contracting officer. SAT to $5.5
million requires approval one level above the contracting officer. Over $5.5 million to $20 million requires
approval by the Contracting Director. Over $20 million to $50 million requires approval by the Regional
Commissioner or Deputy. Over $50 million requires approval by the Head of Contracting Activity.


                                                 2
Finding 2 – Lack of coordination with the Office of General Counsel on high-dollar
acquisition plans affects the integrity of the planning process and puts the award
at risk.

Contracting officers have a fiduciary responsibility to award contracts that are in the best
interest of the taxpayers. Consultation with the GSA’s Office of General Counsel (OGC)
on high-dollar value acquisition plans provides additional oversight to ensure contracts
are planned and awarded in a way that protects the Government’s interests. GSAM
507.1 requires coordination with OGC for acquisitions plans with estimated values over
$20 million.

During our survey phase, we reviewed three acquisition plans with estimated values
between $392 million and $1.4 billion; none of which evidenced coordination with OGC.
During discussions with management, they acknowledged our observations but
generally could not provide a reason the coordination did not occur. In one case, the
awarding contracting officer was no longer with the organization; and therefore,
management stated they could not provide an explanation. Regardless, management is
aware of this requirement and should ensure OGC coordination takes place prior to
approving acquisition plans over $20 million. We were informed by management that as
of the second quarter of 2010, all applicable acquisition plans were coordinated with
OGC and documented in the plan.

During the fieldwork phase, we reviewed two acquisition plans prepared after the
second quarter of 2010 requiring OGC coordination. We found that one of those plans
did not have evidence of coordination. In this case, contracting personnel were not
aware of the correct requirement. A team lead stated that in accordance with GSA
Order 2800.1, this particular plan did not require coordination with OGC. However, that
GSA Order was cancelled in May 2009 and the acquisition plan was subject to the
GSAM 507.1 requirement.

Coordinating with OGC provides integrity to the entire planning and award process. In
addition, contracting officers can ensure the acquisition complies with laws and
regulations and that OGC is familiar with the acquisition in the event their assistance is
needed during contract award and administration.

Recommendation 2

We recommend that the Commissioner of the Federal Acquisition Service:

Implement a procedure to ensure all applicable acquisition plans are coordinated with
OGC prior to approval of the acquisition plan.




                                         3
Finding 3 – Pre-Negotiation Clearance Panels not conducted when required
compromises the quality of negotiations.

The purpose of conducting PNCPs 4 is to ensure quality in negotiating significant
contract actions and assist contracting officers in achieving the greatest possible
discounts for customer agencies. Consequently, by not conducting PNCPs, negotiation
objectives may not reflect a reasonable, appropriate, and sound business judgment. AO
policy requires PNCPs for automotive contracts valued at $2 million or more, for
modifications increasing the automotive acquisition over $2 million, for major automotive
companies, and for sensitive acquisition actions.

We reviewed ten contracts requiring PNCPs and found contracting officers did not
conduct PNCPs for seven of the ten contracts. The negotiated values of these contracts
ranged from $1.1 million for a base plus two-option year contract 5 to approximately
$594 million for a base plus four-option year contract. Management could not provide
an explanation for not conducting PNCPs or locate evidence of conducted PNCPs
because the contracting officers involved with these acquisitions are no longer with the
Center for Vehicle Acquisition. Nevertheless, the Center for Vehicle Acquisition is
ultimately responsible for the contracts awarded, even after the departure of contracting
officers.

PNCPs are essential to providing quality to the overall negotiation process. By
conducting PNCPs, contracting officers can ensure negotiations are planned and
discussed with knowledgeable acquisition personnel. These panels can assist the
contracting officer in achieving the greatest possible discount.

Recommendation 3

We recommend that the Commissioner of the Federal Acquisition Service:

Strengthen management controls over the pre-negotiation process to ensure PNCPs
are properly conducted and documented when required.

Finding 4 – Contracting officers did not maintain a complete record of all
acquisition steps and actions executed in contract files leading to inadequate
contract file documentation.

The contract file is the official record binding the Government to contractors; therefore,
contracting officers must ensure the file provides a complete, logical record of the
acquisition. In addition, the contract file is the basis for contract reviews, protests, and
disputes. If contract file documentation is missing, incomplete, or inaccurate, it
compromises the official contract record and the integrity of the acquisition process.

4
  PNCPs discuss technical, price, and negotiation information prior to negotiations with potential
contractors. The PNCP members can include program office management and/or staff, team leaders,
legal, and/or acquisition personnel.
5
  A modification increased the contract value to over $2 million.


                                              4
According to Federal Acquisition Regulation 4.801, files should contain records of all
contractual actions. In addition, GSAM 504.803 requires contract files to have an index
or contract file checklist, which labels and organizes the file’s contents.

Contracting officers did not follow requirements for proper contract file documentation.
We identified the following contract file documentation deficiencies:

   •   Nine contract files had incomplete or inaccurate documents. This includes, but is
       not limited to, missing contracting officer signatures on important contract
       actions, lack of detail in negotiation documents, discrepancies between contract
       file documents, and mislabeled or unlabeled documents.
   •   Five contract files had missing documentation such as important correspondence
       with offerors, synopsis/solicitation documents, and explanations of significant
       delays in acquisitions.
   •   Seven contract files did not have a contract file checklist.

Personnel turnover within the Center for Vehicle Acquisition may have contributed to
inadequate contract file documentation. Eleven out of fifteen contract files had between
two and four contracting officers responsible for the contract’s actions. As shown in the
other findings, management often could not answer for contract actions because the
contracting officers are no longer with the Center for Vehicle Acquisition. However,
management is ultimately responsible for the contracts and should be able to provide an
explanation regardless of turnover.

It is essential that documentation in the contract files is sufficient to constitute a
complete history of the contract in order to provide a complete background as a basis
for informed decisions at each step in the acquisition process and to support actions
taken.

Recommendation 4

We recommend that the Commissioner of the Federal Acquisition Service:

Improve and standardize the contract file documentation process to ensure (1) contract
file documents are complete and accurate, (2) all completed actions and steps have
supporting documentation, (3) each file is organized according to a completed index or
checklist, and (4) the transfer of files between contracting officers is clearly documented
and an inventory of contract file documents is recorded.

Management Comments

The Commissioner of the Federal Acquisition Service agrees with the report findings.
Management’s written comments to the draft report are included in their entirety as
Appendix B.




                                         5
Conclusion
The Office of Acquisition Operations’ Center for Vehicle Acquisition did not consistently
award and administer vehicles acquisitions in accordance with applicable laws,
regulations, policies, and procedures. We found that contracting officers did not comply
with approval and coordination regulations for acquisition plans. Without proper
oversight in the planning process, acquisitions are at greater risk for mismanagement
and may cause a waste of resources and customer dissatisfaction. In addition,
contracting officers did not always conduct PNCPs, when required, in preparation for
negotiations. By not conducting PNCPs, contracting officers may not benefit from the
requisite knowledge of experienced panel members when developing negotiation
objectives. Furthermore, contracting officers did not adequately maintain or provide
documentation to support contract actions in the contract files. This discredits the
contract record and questions the integrity of the acquisition process. The Office of
Acquisition Operations’ Center for Vehicle Acquisition should strengthen, and where
necessary implement, acquisition processes to ensure awarded contracts are in the
best interest of the Government.




                                        6
Appendix A – Purpose, Scope, Methodology, and Internal
Controls
                                                         Report Number A110105/Q/A/P12001

Purpose
The General Services Administration (GSA) Office of Inspector General included this
audit in the Fiscal Year (FY) 2011 Audit Plan to evaluate vehicle acquisitions within the
Office of Travel, Motor Vehicle, and Card Services (TMVCS).
Scope
The audit’s scope is limited to the award and administration of motor vehicle
acquisitions within TMVCS.
Methodology
To accomplish our objectives, we:
   •    Obtained a universe of 106 non-schedule vehicle contracts with a total dollar
        value of $3,853,013,973.
   •    Sampled 15 contract files with a total dollar value of $2,461,190,750 from the
        Office of Acquisition Operations’ (AO) Center for Vehicle Acquisition. The
        contracts selected for sampling included:
            o Seven multiple negotiated indefinite-delivery indefinite-quantity contracts
            o Four definite-quantity contracts
            o Four Express Desk orders
            o Dollar values per contract ranging from under $100,000 to over $700
               million
            o Acquisitions awarded in FYs 2008, 2010, and 2011.
   •    Reviewed relevant criteria from the Federal Acquisition Regulation, General
        Services Administration Acquisition Manual, and GSA and AO acquisition
        policies and guidelines.
   •    Reviewed the contract files and analyzed the award and administration of the
        contracts according to criteria.
   •    Met with AO personnel and obtained responses to questions and observations
        from our analysis of the contract files.
We conducted the audit between January 2011 and August 2011 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
Internal Controls
This audit was limited in scope to the contract files sampled. Thus, our evaluation of
internal controls was limited to items discussed in the Results section of this report.


                                        A-1
Appendix B – Management Comments
                              Report Number A110105/Q/A/P12001




                      B-1
Appendix C – Report Distribution
                                                     Report Number A110105/Q/A/P12001



Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Assistant Commissioner, Office of Travel, Motor Vehicle, and Card Services (QM)

Director, Office of Acquisition Operations (QMA)

Director, Internal Control Division (BCB)

Branch Chief, GAO & IG Audit Response Branch (BCBB)

Director, Business Analytics and Consulting Division (QB0A)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                       C-1
